No. 20A25
IN THE SUPREME COURT OF THE UNITED STATES

COMMISSIONER OF CORRECTION,
STATE OF CONNECTICUT—Petitioner,

VS.
JAMIE GOMEZ—Respondent.
CERTIFICATE OF SERVICE

It is hereby certified that on August 7, 2020, in compliance with all
applicable rules of procedure, including Rules 21, 22, 23, 29, and 33.2,a
copy of Respondent's Opposition to Application for Stay of Judgment of
the Supreme Court of Connecticut Pending Certiorari was delivered both
electronically and mailed via first class mail, postage pre-paid,
addressed to the following:

Robert J. Scheinblum

Senior Assistant State's Attorney Office of the Chief State's Attorney
Appellate Bureau

300 Corporate Place

Rocky Hill, CT 06067

Tel. (860) 258-5807

Fax (860) 258-5828

Juris No. 410626

Robert.Scheinblum@ct.gov

DCJ.OCSA.Appellate@ct.gov

,

Andrew Patrick O’Shea
Kirschbaum Law Group, LLC
Counsel of record for Respondent
